APPENDIX

ia
TABLE OF CONTENTS
Appendix Page
Unpublished Opinion of
The United States Court of Appeals for the Fourth Circuit
Re: Affirming Criminal Judgment
entered May 13, 2021 ........................................................................................ 1a
Judgment of
The United States Court of Appeals for the Fourth Circuit
entered May 13, 2021 ........................................................................................ 7a
Judgment in a Criminal Case of
The United States District Court
The Middle District of North Carolina
entered July 9, 2020 .......................................................................................... 8a

1a
USCA4 Appeal: 20-4361

Doc: 31

Filed: 05/13/2021

Pg: 1 of6

UNPUB LISHED

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4361

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
V.

JERRY DOUGLAS, JR.,
Defendant - Appellant.

Appeal from the United States District Court for the Middle District of North Carolina,
at
Greensboro. Thomas D. Schroeder, Chief DistrictJ udge. (1:19-cr-00283-TDS-1)
Submitted: April 14, 2021

Decided: May 13, 2021

Before MOTZ, RICHARDSON, and RUSHING, Circuit Judges.
Affirmed by unpublished per curiam opinion.
George E. Crump, III, Rockingham, North Carolina, for Appellant. Matthew G.T. Martin,
United States Attorney, Nicole R. DuPre, Assistant United States Attorney, OFFICE OF
THE UNITED STATES ATTORNEY, Greensboro, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

Case 1:19-cr-00283-TDS Document 95 Filed 05/13/21 Page 1 of 6

2a
USCA4 Appeal: 20-4361

Doc: 31

Filed: 05/13/2021

Pg: 2 of 6

PERC URIA M:
Jerry Douglas, Jr., appeals his jury conviction and the 120-month senten
ce imposed
for being a felon in possession of ammunition, in violation of 18
U.S.C. §§ 922(g)(l ),
924(a)(2). Douglas first asserts that the district court erroneously
denied his motion to
suppress evidence of a bullet found in his possession and, absent eviden
ce of the bullet,
there was insufficient evidence to support his conviction. Douglas
also argues that the
district court erroneously denied his request for a justification defense

jury instruction, and

erred when it calculated the offense level used to calculate his Sentencing

Guidelines range.

Finding no error, we affirm.
In "reviewing a district court's ruling on a motion to suppress, this
Court reviews
conclusions of law de novo and underlying factual findings for clear
error. If, as here, the
district court denied the motion to suppress, this Court construes the
evidence in the light
most favorable to the government." United States v. Fall, 955 F.3d 363,
369-70 (4th Cir.),

cert. denied, 141 S. Ct. 310 (2020) (internal citations, quotation marks,
and brackets
omitted). We find that law enforcement possessed probable cause to
believe that Douglas
assaulted a government official and, thus, we discern no error in the district

court's decision

to deny Douglas' motion to suppress evidence found incident to the lawful
arrest. Having
discerned no error in the district court' s decision to deny the motion to
suppress, we reject
Douglas' argument that there was insufficient evidence to support his
conviction.
We also discern no error in the district court's refusal to instruct the
jury regarding
the justification defense. "As a general proposition a defendant is entitled
to an instruction
as to any recognized defense for which there exists evidence suffici
ent for a reasonable
2

Case 1:19-cr-00283-TDS Docum ent 95 Filed 05/13/ 21 Page
2 of 6

3a
USCA 4 Appeal: 20-4361

Doc: 31

Filed: 05/13/2021

Pg: 3 of 6

jury to find in his favor." Mathews v. United States , 485 U.S.
58, 63 (1988) . "The
require ment of a threshold showin g on the part of those who assert
an affirmative defense
to a crime .. . is a testament to the importance of trial by jury and the
need to husban d the
resources necess ary for that process by limitin g evidence in a trial
to that directed at the
elements of the crime or at affirmative defenses ." United States v.
Bailey, 444 U.S. 394,
416 (1980). Accord ingly, "[i]f ... an affirmative defense consists of
several elements and
testimo ny supporting one elemen t is insufficient to sustain it even if

believed, the trial court

and jury need not be burden ed with testimo ny supporting other elemen
ts of the defense."
Id.
Declining to give a propos ed instruction amounts to reversible
error, therefore,
"only if [the propos ed instruction] (1) was correct, (2) was not substan
tially covere d by the
charge that the district court actually gave to the jury, and (3) involv
ed some point so
important that the failure to give the instruction seriously impair
ed the defend ant's
defense." United States v. Raza, 876 F.3d 604, 614 (4th Cir. 2017)
(internal quotation
marks omitted). "We review a district court's decision to give [or
not give] a particular
jury instruction for abuse of discretion." United States v. Mil tier, 882
F .3d 81 , 89 (4th Cir.
2018).
In order for a defendant to be entitled to a jury instruction on the affirma
tive defense
of justification, the defendant must put forth sufficient evidence that:
( 1) he "was under
unlawful and presen t threat of death or serious bodily injury;" (2)
he "did not recklessly
place himsel f in a situation where he would be forced to engage in
criminal conduct;" (3)
he "had no reasonable alternative (to both the criminal act and
the avoidance of the
3

Case 1:19-cr-00283-TDS Document 95 Filed 05/13/ 21 Page
3 of 6

4a
USCA4 Appeal: 20-4361

Doc: 31

Filed: 05/13/2021

Pg: 4 of 6

threate ned harm); " and (4) there was a "direct causal relationship
betwee n the criminal
action and the avoida nce of the threate ned harm." United States
v. Crittendon, 883 F.2d
326, 330 (4th Cir. 1989). As Dougla s failed to make a thresho ld showin
g ofall the elements
necess ary to establi sh a justific ation defense, we discern no error
stemm ing from the
district court's refusal to instruct the jury regard ing the defense.
See United States v.

Mooney, 497 F .3d 397, 404 (4th Cir. 2007) (constru ing the affirmative

justific ation defense

very narrow ly when it comes to felon in posses sion of firearm cases);
United States v.

Gilbert, 430 F.3d 215, 219 (4th Cir. 2005) (findin g that justific ation defens
e is applicable
in only the rarest of circum stances and that "the scenarios in which
a defend ant could even
colorab ly assert its applica bility are extraor dinaril y uncom mon").
Dougla s last assigns error to the district court's calculation of the base
offense level
attributable to his crime of convic tion by arguin g that the court errone
ously determ ined
that Dougla s constru ctively posses sed firearms. Dougla s further
asserts that the district
court errone ously enhanc ed his offense level: (1) two levels, pursua
nt to U.S . Senten cing
Guidelines Manua l (USSG ) § 2K2.l( b)(l)(A ) (2018), based on the
three firearms he argues
he did not constructively possess; (2) four levels, pursua nt to USSG
§ 2K2.l( b)(6)(B ),
based on his posses sion of ammun ition in connec tion with anothe r
felony offense; and (3)
six levels, pursua nt to USSG § 3A 1.2(c )( 1), for assaulting a law enforc
ement officer during
his crime of conviction.
In consid ering Guidel ines challen ges, we review the district
court' s legal
determinations de novo and its factual findings for clear error. United
States v. Dennings,
922 F.3d 232, 235 (4th Cir. 2019). A factual finding is clearly errone
ous when, "although

4

Case 1:19-cr-00283-TDS Document 95 Filed 05/13/ 21 Page
4 of 6

5a
USCA4 Appea l: 20-4361

Doc: 31

Filed: 05/13/2021

Pg : 5 of 6

there is evidence to support it, the reviewing court on the entire eviden
ce is left with the
definite and firm conviction that a mistake has been committed." United
States v. Wooden,
887 F.3d 591, 602 (4th Cir.2018) (internal quotation marks omitted). "If
the district court's
account of the evidence is plausible in light of the record viewed in its
entirety, the court
of appeals may not reverse it even though convinced that had it been sitting
as the trier of
fact, it would have weighed the evidence differently." United States v.
Ferebee, 957 F.3d
406, 417 (4th Cir. 2020) (internal quotation marks omitted).
We discern no error in the district court's determination that Dougla
s was in
constructive possession of firearms located within the common areas
of the residence in
which he was found on the evening of his arrest. See United States v.
Hall, 858 F.3d 254,
259 (4th Cir. 2017) (recognizing that, under the "constructive posses
sion theory," the
Government must "prove that Defendant knew of the contraband' s presen
ce and had the
power to exercise dominion and control over it" (internal quotation
marks and brackets
omitted)). We also discern no error in the district court's decisions
to reject Douglas'
objections to the remaining offense level enhancements.

See, e.g., United States v.

Manigan, 592 F.3d 621 , 629 (4th Cir. 2010) (recognizing that the locatio
n or proximity of
a seized firearm is relevant to a sentencing court' s analysis of whether
it was possessed "in
connection with" drug activities); United States v. Jenkins, 566 F.3d
160, 162 (4th Cir.
2009) (recognizing that the "in connection with" requirement of USSG
§_2K2.1 (b )(6) is
met "if the firearm facilitated or had the potential of facilitating
the other offense ,"
including it being "present for protection or to embolden the actor"
(internal quotation

5

Case 1:19-cr-00283-TDS Document 95 Filed 05/13/ 21 Page
5 of 6

6a
USCA4 Appeal: 20-4361

Doc: 31

Filed: 05/13/2021

Pg: 6 of6

marks omitted)). We therefore find no error in the calculation of Douglas'
Guidelines
range.
Based on the foregoing, we affirm the criminal judgment. We dispense with
oral
argument because the facts and legal contentions are adequately presented in the
materials
before this court and argument would not aid the decisional process .
AFFIRM ED

6

Case 1:19-cr-00283-TDS Document 95 Filed 05/13/21 Page 6 of 6

7a
USCA4 Appeal: 20-4361

Doc: 32-2

Filed : 05/13/2021

Pg: 1 of 1

FILED: May 13, 2021

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4361
( 1: 19-cr-00283-TDS-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
V.

JERRY DOUGLAS, JR.
Defendant - Appellant

JUDGMENT

In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.

Isl PATRICIA S. CONNOR, CLERK

Case 1:19-cr-00283-TDS Document 96 Filed 05/13/21 Page 1 of 1

8a
AO 2458 (NCMO Rov 01/20) Snoet 1 • Judgment In II Criminal Case

United States District Court
Middle District of North Carolina
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

V.

JERRY [NMN] DOUGLAS, JR.

Case Number:

1:19-CR-00283-1

USM Number:

34989-057

Robert L. McClellan
Defendant's Attorney

THE DEFENDANT:
D pleaded guilty to count(s)
D pleaded nolo contendere to count(s) _ _ which was accepted by the court.
IZl was found guilty on count 1s of the superseding indictment filed July 29, 2019 after a plea of not
guilty.
The defendant is adjudicated guilty of these offenses :
Title & Section

18:922(g)(1) and 924(a)(2)

Nature of Offense

Felon in Possession o.f Ammunition

Offense Ended

Count

August27,2018

1s

The defendant is sentenced as provided in pages 2 through 8 of this judgment
. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.
D The defendant has been found not guilty on count(s)
IZl Count 1 of the original indictment filed May 29, 2019 is dismissed on the motion of the defendant
without objection from the United States.
IT IS ORDERED that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name,
residence , or mailing address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant shall notify the court and United States attorney
of any material change in the economic circumstances.

n,mor]t :::~l ~
July 2~

Signature of Judge

Thomas D. Schroeder, United States District Judge
Name & nue of Judge

Date

pAy

9a
AO 245B (NCMD Rev. 01120) Sheet 2 • Imprisonment
Page 2 of 8

DEFENDANT:
CASE NUMBER :

JERRY [NMN] DOUGLAS, JR.
1: 19-CR-00283-1

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons
to be imprisoned for a total term of:
120 months.
[120 months to run concurrent with any sentence imposed in 18CRS82896, 18CRS829
04, 18CRS82910, 18CRS82911, 1BCRS82912,
18CRS82913, 18CRS82914 and 18CRS82991.]

l&I The court makes the following recommendations to the Bureau of Prisons: That the defendant be designated
to a facillty where he may be
given a full mental health evaluation and any appropriate mental health treatment, particularly
for anger management. It is further recommended
that the defendant be designated to a facility where he may receive vocational training and
treatment provided by the Bureau of Prisons and, to the extent it does not conflict with that, the most intensive form of substance abuse
the defendant be designated to a facility as close as
possible to his home In North Carolina.
1

l&I The defendant Is remanded to the custody of the United States Marshal..

D

D

The defendant shall surrender to the United States Marshal for this district.

D

at ____ __ am/pmon _ _ _ _ __

D

as notified by the United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the
Bureau of Prisons:

D

before 2 pm on .

D

as notified by the United States Marshal.

D

as notified by the Probation or Pretrial Services Office.

I have executed this judgment as follows:

RETURN

Defendant delivered on _ _ _ _ _ _ _ _ _ _ _ to _ _ _ _ _ _ _ _ _ _
_ _ _ _ _ _ _ _ _ at
_ _ _ _ _ _ _ _ _ _ _ _ _ _ , with a certified copy of this judgment.

UNITED STA,:ES MARSHAL

BY
DEPUTY UNITED STATES MARSHAL

10a
AO 245B (NCMO Rev. 01/20) Sheet 3 • Supervised Release
Page 3 ol 8

DEFENDANT:
CASE NUMBER:

JERRY [NMN1 DOUGLAS, JR.
1: 19-CR-00283-1

SUPERVISED RELEASE
Upon release from Imprisonment, you will be on supervised release for a term of: Three (3)
years.

MANDATORY CONDITIONS
1.
2.
3.

You must not commit another federa l, state or local crime.
You must not unlawfully possess a controlled substance
You must refrain from any unlawful use of a controlled substance. You must submit to one
imprisonm~rit and at least two periodic drug tests thereafter, as determined by the court. drug test within 15 days of release from
D The above drug testing condition is suspended based on the court's determination that the defendant poses a low risk
of
future substance abuse. (Check, If applicable.)
4. D You must make restitution In accordance with 18 U.S.C §§ ~663 and 3663A or any
other statute authorizing a sentence of
restitution. (check if applicable)
5. l8l You must cooperate In the collection of DNA as directed by the probation officer.
(Check, If applicable.)
6. D You must comply with the requirements of the Sex Offender Registration and Notification
Act (34 U.S.C § 20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration
agency in which you reside, work, are a
student, or were convicted of a qualifying offense. (Check, if applicable.)
7. D You must participate in an approved program for domestic violence. (Check, if applicable.)
You must comply with the standard conditions that have been adopted by this court as well
as with any other conditions on the attached
page.

11a
AO 2458 (NCMD Rev. 01/20) Shea\ 3A - Supervised Releaae

DEFENDANT:
CASE NUMBER:

Page4 of 8

JERRY [NMN] DOUGLAS, JR.
1: 19-CR-00283-1

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions
of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and
identify the minimum tools needed by probation
officers to keep Informed, report to the court about, and bring about improvements in your
conduct and condition.
1.

2.
3.
4. ·
5.

6.
7.

8.

9.
10.
11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized
to reside within 72·hours of your release
from imprisonment, unless the probation officer instructs you to report to a different probation
office or within a differe·nt time frame.
After initially reporting to the probation office, you will receive instructions from the court
or the probation officer about how and when you
must report to the probation officer, and you .must report to the probation officer as Instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside
without first getting permission from the court
or the probation officer.
·
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you
live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at
least 10 days before the change. If notifying the
probation officer in advance is not possible due to unanticipated circumstances, you must
notify the probation officer within 72 hours of
becoming aware of a change or expected change.
··
You must allow the probation officer to vJsit you at any time at your home or elsewhere, and
you must permit the probation officer. to take
any Items prohibited by the conditions of your supervision that he or she observes in plain
view.
·
You must work. full time (at least 30 hours per week) at a lawful type of employment, unless
the probation officer excuses you from doing , .
so. If you do not have full-time employment you must try to find full-time employment, unless
the probation officer excuses you from doing
so. If you plan to change where you work or anythlng about your work (such as your position
or your job responsibilities), you must notify
the probation Qfficer at least 10 days before the change. If notifying the probation officer
at least 10 days In advance is not possible due to
unanticipated circumstances, you must notify the probation officer within 72 hours of becoming
aware of a change or expected change.
You must not communicate or Interact with someone you know is engaged in criminal activity.
If you know someone has been convicted
of a felony, you must not knowingly communicate or interact with that person without first
getting the permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation
officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition; destructive device,
or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another
person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidentia
l human source or informant without first
getting the permission of the court.
If the probation officer determines that you p~se a risk to another pers,on (including an
organization), the prob~tlon officer may require you
to notify the person about the risk and you must comply with that instruction. The probation
officer may contact the person and confirm
that you have ·notified the person about the risk.
You must follow the Instructions of the probation officer related to the conditions of superv,ision
.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has
provided me with a written copy of this judgment
containing these conditions. For further information regarding these conditions, see Overview
of Probation and Supervised Release Conditions,
available at: ~.uscou rts.gov.
·
Defendant's Signature _,_ _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

Date_ _ _ _ _ _ _ _ __

12a
Page & of B

AO 2458 (NCMO Rev. 011201 Sheet 3C - Imprisonment, Special Conditions

DEFENDANT:
CASE NUMBER:

JERRY [NMN] DOUGLAS, JR.

1:19-CR-00283-1

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall abide by the mandatory and stan'clard conditions of supervised release.
The defendant shall provide any requested financial information to the probation officer.
The defendant shall submit to substance abuse testing, at any time, as directed by the probation officer. The defendant shall cooperatively
participate In a substance abuse treatment program, which may include drug testing and inpatient/residential treatment, and pay for treatment
services, as directed by the probation officer. During the course oftreatment, .the defendant shall abstain from the use of alcoholic beverages.
The defendant shall cooperatively participate in a mental health treatment program, which may include inpatient treatment, and pay for treatment
servi~es, ·as directed by the probation officer.
The defendant shall submit his person, residence, office, vehicle, or any property under his control to a warranlless search. Such search shall be
conducted by a United States Probation Officer at a reasonable time and in a reasonable manner, based upon reasonable suspicion of
contraband or evidence of a violation of a condition of release. Failure to submit to such a search may be grounds for revocation; the defendant
shall warn any residents that the premises may be subject to ,searches.
The defendant shall not associate with or be In the company of gang member/security threat group member. The defendant shall not frequent
any locations where gangs/security threat groups congregate or meet. The defendant shall not wear, display, use, or possess any clothing or
accessories whic.t1 have any gang or security threat group significance.

.__

I

13a
Pagee ore

AO 24SB (NCMO Rev. 01/20) Sheet 5 • Criminal Monetary Penalties

DEFENDANT:
CASE NUMBER:

JERRY [NMN] DOUGLAS, JR.
1:19-CR-00283-1

CRIMINAL MONETARY PENAL TIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
$100.00

Restitution
$.00

Fine
$.00

AVAA Assessment•

JVTA Assessment••

D

The determination of restitution is deferred unt!I ______. An Amended Judgment In a Criminal Case (AO 245C) will be entered
after such determination.

D

The defendant must make restitution (Including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise
In the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(1), all nonfederal victims must be paid
before the United States is paid.

D

Restitution amount ordered pursuant to plea agreement $

D

The defendant must pay interest on restitution.and a fine of more than $2,500, unless the restit~tion or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

D

The court _determined that the defendant does not have the ability to pay interest and it is ordered that:
D the interest requirement is waived pursuant to 18 U.S;C. Section 3612(f){3) for the

D the Interest requirement for the .

D fine

□

D fine

D restitution.

restitution Is modified as follows:

• Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub, L. No, 115-299.
•• Justice for Victims of Trafficking Act of 2015, Pub. L No. 114-22 •
... Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

14a
AO 245B (NCMD Rev. 01/20) Sheet8 • Schedule of Payments

DEFENDANT:
CASE NUMBER:

Page? cl 8

JERRY [NMN] DOUGLAS, JR.

1: 19-C R-00283- 1

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties
is due as follows:
A

181

Lump sum payment of$ 100.00 due Immediately, balance due
D not later than·_ _ _ , or

181

B □
c □
D

D

E

D

F

181

D

C, D D, D E, or 181 F below; or
Paym~nt to begin immediately (may be combined with D C, D D, or D F below): or
Payment in equal _ _ (e.g. weekly, monthly, quarterly) installments of$___ over
a period of_._ _ _ (e.g., months or years),
to commence ___ (e.g., 30 or 60 days) after the date of this judgment; or
Payment in equal _ _ _ (e.g. weekly, monthly, quarterly) installments of$ _ _ _ over
a period of ___ (e.g., months or years),
to commence ___ (e.g., 39 or 60 days) after release from imprisonment to a term of
supervision; or
Payment during t~e term of supervised release will commence within ___ (e.g., 30 or
60 days) after release from Imprisonment.
The court will set the payment plan based on an assessment of the defendant's ability to
pay at that time; or
Special instructions regarding the payment of criminal monetary penalties: :ro the extent
the defendant cannot immediately comply,
in accordance with

the Court recommends the defendant participate in the Inmate Flnanclal Responsib
ility Program.·

Unless the court has expressly ordered otherwise, if this judgmen~ Imposes imprisonment,
payment .of crlmlnal monetary penalties is due during
· imprisonment. All criminal monetary penalties, except those payments made through the
Federal Bureau of Prisons' Inmate Financial
Responsibility Program, are to be made to the Clerk of Court, United States District Cour1
for the Middle District of North Carolina, 324 West
Market Street, Greensboro, NC 27401-2544, unless otherwise directed by tlie court, the
probation officer, or the United States Attorney.
Nothing herein shall prohibit the United States Attorney from pursuing collection of
outstanding crlmlnal monetary penalties.
The defendant shall receive credit for all payments previously made toward any criminal
monetary penalties imposed.

D

Joint and Several

Defendant arid Co-Defendant Names, Case Numbers (including defendant number), Total
Amount, Joint and ~everal Amount, and
- corresponding payee, If appropriate.

D

The defendant shall pay the cost of prosecution.

D

The defendant shall pay the following court cost(s):

D

The defendant shall forfeit the defendant's interest in the following property to the United
States:

Payments shall be applied In the following order: (1) assessment; (2) restitution prlnclpal;
(3) restitution interest, (4) AVAA
assessment, (5) flne principal, (6) fine interest, (7) community restitution, (8) JVfA
assessment, (9) penalties, and (10) costs, Including
cost of prosecution and court costs.

15a
AO 2458 (NCMD Rev. 01/20) Sheet 8 • Schedule ol Payments

DEFENDANT:
CASE NUMBER:

PageBof8

JERRY [NMN] DOUGLAS, JR.

1: 19-CR-00283-1

DISPOSITION OF EVIDENCE
~ That at the expiration of time for appeal, the narcotics seized from the defendant shall be destroyed and the
flreanns seized·shall
be destroyed or returned to their lawful·and rightful owner, if one can be determined.

